DOE/IG-0561




                              ENVIRONMENTAL MANAGEMENT
                                PERFORMANCE MEASURES
         AUDIT
        REPORT




                                       JUNE 2002


 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                      U. S. DEPARTMENT OF ENERGY
                            Washington, DC 20585

                                  June 27, 2002


MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman (Signed)
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Environmental Management
                          Performance Measures"


BACKGROUND

As reported in its recent Performance and Accountability Report, the task of cleaning up
contaminated sites and disposing of radioactive waste is one the greatest challenges facing the
Department of Energy. The Department's effort, which is estimated to cost over $230 billion and
last for decades, includes remediation and disposal of large quantities of radioactive waste at 40
separate primary sites, and over 4,800 release sites.

The Department has committed to completing the cleanup faster and less expensively, and to
reducing the risk to public health, its workers, and to the environment. The Office of
Environmental Management established corporate performance measures and project-specific
budget milestones as the primary mechanisms to measure overall program performance and gauge
its success in cleaning up the environment. Given your concerns, those of the Department's senior
managers, and the Congress regarding the environmental management program's cost and
schedule, we initiated this audit to determine whether the existing measures reflect overall
program performance.

RESULTS OF AUDIT

The audit disclosed that even though the environmental remediation program
experienced substantial cost growth and schedule slippages, the Department
consistently reported that the program was successful in meeting corporate goals. In
addition, the performance measures covered only a limited number of cleanup
projects. We found that Environmental Management focused on measuring discrete
accomplishments rather than overall program results. As a consequence, the
Department did not maximize its use of a valuable management tool that could have
helped to identify and remedy cost and schedule problems. Without improvements to
existing performance measurement mechanisms, the Department may be hindered in
its efforts to satisfy the President's Fiscal Year 2002 Management Agenda initiative
that directs all agencies to focus on performance rather than process and to fully
associate program cost to program performance.

We recognize that establishing reliable measures of progress is a challenging and difficult
undertaking and that the current suite of corporate performance measures does reflect work
completed on major components of site cleanup. However, improvements are needed. The report
includes recommended actions to achieve this objective.
                                            -2-


MANAGEMENT REACTION

Management agreed with the conclusions reached and the appropriateness of the
recommendations. Planned corrective actions were responsive to our recommendations.
Management's comments have been included in the entirety at Appendix 4.

Attachment

cc: Chief of Staff
    Under Secretary for Energy, Science and Environment
    Assistant Secretary for Environmental Management
ENVIRONMENTAL MANAGEMENT PERFORMANCE MEASURES


TABLE OF
CONTENTS


              Overview

              Introduction and Objective ....................................................................1

              Conclusions and Observations ...............................................................2


              Environmental Management Performance Measures

              Details of Finding ..................................................................................3

              Recommendations ..................................................................................6


              Appendices

              Fiscal Year 2001 Corporate Performance Measures .............................7

              Environmental Management Performance Indicators ..........................9

              Related Reports ....................................................................................10

              Management Response .......................................................................12

              Scope and Methodology ......................................................................14
Overview

INTRODUCTION AND   Fifty years of nuclear weapons production and nuclear energy research
OBJECTIVE          during the Cold War produced large volumes of nuclear materials, spent
                   nuclear fuel, and radioactive and hazardous waste resulting in
                   contaminated facilities, soil, and groundwater. The primary goal of the
                   Department of Energy's Office of Environmental Management
                   (Environmental Management) is to clean up this legacy of the Cold
                   War. The Assistant Secretary for Environmental Management recently
                   announced that one of her top priorities was reducing the time and cost
                   of cleanup, as well as expecting the program to deliver real risk
                   reduction through its cleanup efforts.

                   To measure overall program performance of the clean up program,
                   Environmental Management established corporate performance
                   measures and project-specific budget milestones. The corporate
                   performance measures included quantifiable annual goals for major
                   mission areas such as waste management, materials stabilization, and
                   release site cleanups (see Appendix 1 for a list and brief explanation of
                   each). The project-specific budget milestones were designed to
                   articulate planned objectives for work not directly linked to the
                   corporate performance measures. For Fiscal Year (FY) 2001,
                   Environmental Management established over 300 of these milestones.

                   Over the last four years both the Office of Inspector General (OIG) and
                   the General Accounting Office (GAO) have issued several reports that
                   identify cost increases or schedule slippages at Environmental
                   Management sites. For example, in May 2001 we reported that the
                   Miamisburg Environmental Management Project would close four
                   years behind schedule and more than $500 million over budget. The
                   GAO has also designated Environmental Management project
                   management as a major management challenge, citing project cost and
                   schedule overruns as one of the causes (see Appendix 3 for additional
                   examples of OIG and GAO reports identifying problems with site
                   cleanup).

                   Taken together, corporate performance measures and milestones are
                   Environmental Management's tools to measure its success in
                   aggressively cleaning up the legacy of the Cold War. Given the
                   concerns and priorities of management regarding cost, schedule, and




Page 1                                                         Introduction and Objective
                  risk reduction, the objective of our audit was to determine whether
                  Environmental Management's performance measures reflect overall
                  program performance.


CONCLUSIONS AND   Environmental Management's performance measure results did not
OBSERVATIONS      completely reflect overall program performance. Although numerous
                  performance measures exist at the corporate and project level, these
                  measures did not capture overall program results and did not cover
                  large parts of the cleanup program. Even though the program
                  experienced substantial cost growth and schedule slippages, the
                  Department consistently reported that its environmental cleanup
                  program was generally successful in meeting corporate goals. This
                  problem occurred because management chose to focus on measuring
                  discrete accomplishments rather than overall program results. As a
                  consequence, the Department was deprived of a valuable tool that could
                  have helped it identify problems with cost growth and schedule
                  slippages. For example, measurement in this area could have helped
                  focus management's attention on recent estimated cost increases of
                  $39 billion and schedule slippages that averaged almost 6 years per site.
                  Lack of overall performance data may also inhibit the Department's
                  ongoing efforts to satisfy the President's FY 2002 Management Agenda
                  initiatives that focus on performance, not process.

                  Management should consider the issues discussed in this report when
                  preparing its year-end assurance memorandum on internal controls.



                                                              (Signed)
                                                       Office of Inspector General




Page 2                                                  Conclusions and Observations
Environmental Management Performance Measures

Performance Measures   Although Environmental Management had developed a number of
and Overall Program    corporate and project-specific performance measures, these measures
Performance            did not capture overall program results. Specifically, the measures did
                       not cover the majority of cleanup projects or budgets, capture overall
                       program performance, or address risk reduction attributes.

                                           Performance Measure Coverage

                       Environmental Management's performance measures covered only a
                       fraction of its cleanup projects and overall budget. For example,
                       Environmental Management's FY 2001 budget request provided data on
                       a total of 298 funded projects totaling $6.3 billion. However, only 76
                       of those projects (26 percent) were covered by corporate performance
                       measures representing only $2 billion (32 percent) of the budget
                       request. Project-specific milestones also had similarly limited project
                       coverage. Key milestones reported in the budget covered only 102, or
                       34 percent, of the 298 funded projects. These 102 projects represented
                       only about $2.8 billion or 44 percent of Environmental Management's
                       budget request.

                       To further illustrate the lack of coverage, the Department's inventory of
                       high-level radioactive waste has a high profile, both internal and
                       external to the Department, as there are significant risks associated with
                       this waste type. Despite the high profile of this program,
                       Environmental Management established only one corporate
                       performance measure pertaining to it, the production of canisters of
                       vitrified high-level waste. This activity represented only $176 million
                       (18 percent) of the $970 million budget for high-level waste activities in
                       the Fiscal Year 2001 budget. While this measure captured performance
                       of a discrete process at the Savannah River Site, it provided no
                       information on progress of the high-level waste programs at Hanford or
                       Idaho. For example, Environmental Management has consistently met
                       or exceeded its canister production performance measure since 1998,
                       while other major parts of the high-level waste program face a $4
                       billion increase in cost and 10-year delay in schedule.

                                      Measuring Overall Program Performance

                       In addition, Environmental Management's reported performance results
                       indicated that it was generally successful in meeting its program goals
                       despite slippages in its overall cleanup schedule and significant cost
                       growth. The Environmental Management program reported that it met
                       or nearly met 82 percent of its annual corporate performance measures
                       since 1998. In addition, Departmental records disclosed that the

Page 3                                                                       Details of Finding
                      program met over 70 percent of its budget milestones in FY 2000 and
                      2001 (detailed measure and milestone results are included in Appendix
                      2). In contrast to these favorable performance results, over the last
                      several years estimated cleanup costs have increased and cleanup
                      schedules have slipped. For example, the estimated1 cost to cleanup
                      former nuclear weapons sites has grown from $145 billion in FY 1998
                      to $184 billion in FY 2001, an increase of $39 billion, or 27 percent.
                      In addition, our analysis of planned site completion dates indicates that
                      closure schedules for Environmental Management's cleanup sites have
                      slipped. At the 40 cleanup sites still open at the end of FY 2001, the
                      average time to complete cleanup work changed from 11 years in 1998
                      to 17 years in 2001. These slippages have resulted in an increased
                      duration of 6 years, or 55 percent, with schedule slippages occurring at
                      32 of the 40 remaining cleanup sites.

                                          Measuring and Reporting Risk Reduction

                      Also, while Environmental Management has recently focused on
                      delivering risk reduction as a priority, it does not currently measure or
                      report on risk reduction. To its credit, Environmental Management
                      outlined a change in approach to cleanup and closure that focuses on
                      reducing risk to public health, workers, and the environment in its
                      February 2002 top-to-bottom review. Currently, however, none of the
                      corporate measures related to cleanup explicitly measure risk reduction.
                      For example, measures on waste disposal provide details on how much
                      waste of various types was disposed but do not provide information on
                      the impact on risks to the workers, the public, and the environment. In
                      addition, Environmental Management does not have a standardized risk
                      measurement system across sites or a system that can identify changes
                      in relevant risks on an interim or periodic basis. Supplementing
                      existing corporate measures with risk reduction information is essential
                      to demonstrate whether clean up actions are successfully reducing risk
                      to the public and the environment.

Measures Should       Office of Management and Budget (OMB) and Departmental guidance
Represent Overall     require that performance measures provide an effective means to
Program Performance   summarize overall program performance. OMB Circular No. A-11
                      requires the Department to prepare an Annual Performance Plan that
                      presents a comprehensive picture of performance across the
                      Department. The circular and the Department's own performance

                      1
                          The estimated cleanup costs are based largely on lifecycle cost estimates
                          that reflect a strategy for accelerating Environmental Management's efforts
                          to clean up most of the Department's sites by 2006, with the remaining
                          sites to be cleaned up by 2070.

Page 4                                                                                 Details of Finding
                           measure guidance indicate that accomplishing the goals in the Annual
                           Performance Plan should show progress towards meeting the
                           Department's long-term goals and objectives. The Government
                           Performance and Results Act of 1993 (Results Act) was enacted with
                           the intent of improving Federal program performance and improving
                           congressional decision-making by providing information on the
                           effectiveness of Federal programs. Among other things, the Results
                           Act required Federal agencies to develop performance measures to
                           support the achievement of agency missions, and to report on the
                           success in achieving program results.

No Focus on Overall        Performance measure results did not completely reflect overall
Program Results            program performance because management chose to focus its measures
                           on discrete accomplishments rather than overall program results.
                           Achieving the corporate performance measures reflected progress
                           against particular metrics in the form of annual accomplishments, but
                           did not reflect overall progress towards site cleanup or provide cost or
                           schedule information. In essence, the measures reflected what discrete
                           tasks were accomplished but did not address overall progress to
                           mission completion. Environmental Management's policy guidance
                           stated that corporate performance measures are used to justify and
                           defend Environmental Management's budget to OMB, Congress, and
                           stakeholders, and that measures should reflect accomplishments. Our
                           discussions with Environmental Management officials indicated that
                           the corporate performance measures were selected because they were
                           clear, quantifiable indicators of performance. They further explained
                           that these measures were easy to roll up and present from a
                           programmatic standpoint and were not intended to represent the full
                           resources used by Environmental Management in meeting its cleanup
                           mission.

Measures Could Provide     The lack of focus of the measures on overall program results deprived
Valuable Tool to Measure   the Department of a valuable tool for monitoring the progress of its
Program Performance        cleanup program. Periodic reporting of information on overall cost and
                           schedule performance could have focused management's attention on
                           trends in cost growth of $39 billion and schedule slippages of almost
                           6 years per site in the cleanup program. Once implemented, the
                           Department may also be able to use such performance data to
                           determine whether the initiatives outlined in the President's
                           Management Agenda to focus management on performance, not
                           process, are successful. Overall results may also help the
                           Environmental Management program identify reasons for negative
                           trends or variances in cost and schedule.



Page 5                                                                         Details of Finding
RECOMMENDATIONS   We recommend that the Assistant Secretary for Environmental
                  Management focus the corporate measures on overall program
                  performance. Specifically, we recommend that the Assistant Secretary
                  develop performance measure mechanisms that:

                      1. Supplement existing corporate performance measures and
                         provide information on overall cost and schedule performance;
                         and,

                      2. Capture changes in risk across Environmental Management's
                         site cleanup activities. As the cleanup program moves into an
                         accelerated, risk-based cleanup strategy, such a mechanism
                         should highlight whether the program's efforts were successful
                         in reducing or eliminating risks to public health, workers, and
                         the environment.




Page 6                                            Recommendations and Comments
Appendix 1

                 FISCAL YEAR 2001 CORPORATE PERFORMANCE MEASURES


    1.   Complete remediation at three geographic sites – a geographic site is an area of land or a
         series of buildings where Environmental Management has or is conducting cleanup work.

    2. Complete 196 release site cleanups – release site cleanups are conducted at inactive waste
       sites or facilities where releases or spills have occurred and contamination has been released
       into the environment.

    3. Complete 45 facility decommissionings – decommissioning involves the decontamination
       and dismantlement and removal of nuclear facilities that are no longer active and pose a risk
       to public health and the environment.

    4. Deactivate 20 facilities – activities associated with minimizing the risks, hazards, and
       associated costs at facilities to make them available for re-use or eventual decontamination
       and decommissioning.

    5. Produce 225 canisters of high-level waste – high-level waste is highly radioactive waste
       material resulting from the reprocessing of spent nuclear fuel. The long-term objective for
       high-level waste management is disposal in a geologic repository. High-level waste is made
       disposal-ready through treatment to produce canisters of vitrified waste.

    6. Ship 2,425 cubic meters of transuranic waste to WIPP for disposal – transuranic waste is,
       with certain exceptions, radioactive waste containing more than 100 nanocuries of alpha-
       emitting transuranic isotopes per gram of waste, with half-lives greater than 20 years. The
       long-term objective is to dispose of all defense related transuranic waste at the Waste
       Isolation Pilot Plant in New Mexico.

    7. Dispose of approximately 8,271 cubic meters of mixed low-level waste – mixed low-level
       waste (MLLW) consists of both hazardous and radioactive components and is not high-level
       waste or transuranic waste. The long-term goal for MLLW disposal is to develop the capacity
       needed to dispose of the existing inventory as well as any newly generated waste.

    8.   Treat approximately 4,814 cubic meters of mixed low-level waste – the long-term goal for
         mixed low-level waste is to develop the necessary treatment of the existing inventory as well
         as any newly generated waste.

    9.   Dispose of approximately 47,908 cubic meters of low-level waste – low-level waste (LLW)
         is radioactive waste that is not high-level radioactive waste, transuranic waste, spent nuclear
         fuel, byproduct material, or naturally occurring radioactive material. The near– and long-term
         goals are to continue to dispose of LLW at a pace to eliminate currently stored LLW and
         match generation of new waste.



Page 7                                            Fiscal Year 2001 Corporate Performance Measures
Appendix 1 (continued)

    10. Stabilize 510 containers of plutonium metals/oxides – these materials must be stabilized
        to reduce the level of potential risk such as exposure to radiation, contamination of people
        and the environment, and critical events. Stabilization means that something (i.e.,
        processing from a liquid to a solid form, repackaging, etc.) must be done to the nuclear
        material so that they pose significantly less risk to workers, the public, and/or the
        environment.

    11. Stabilize 29,456 kilograms bulk of plutonium residues—see Number 10.

    12. Move to dry storage 195 metric tons of heavy metal of spent nuclear fuel – similar to
        nuclear materials, spent nuclear fuel must also be stabilized to reduce the level of potential
        risk such as exposure to radiation, contamination of people and the environment, and critical
        events.

    13. Accomplish 200 innovative technology deployments – deployment is the use of a
        technology system toward accomplishment of one or more site-specific Department
        Environmental Management program cleanup objectives as applied to the actual waste
        requiring management at the site. The intent is to encourage sites to deploy innovative
        technologies to solve cleanup problems and reduce cost.




Page 8                                           Fiscal Year 2001 Corporate Performance Measures
Appendix 2

               ENVIRONMENTAL MANAGEMENT PERFORMANCE INDICATORS


The tables below show detailed results of Environmental Management's performance indicators including
the results of the corporate measures and project-specific budget milestones.


                         Table 1. Success in Meeting Corporate Performance Measures

      Measure Status                                                      1998   1999   2000    2001    Total
      Total Number of Measures                                             14     15     14      13      56
       Below Expectation                                                    4      2     3        1      10
       Met or Nearly Met                                                   10     13     11      12      46
       Percent Met or Nearly Met                                          71%    87%    79%     92%     82%
      Source: Accountability Report for Fiscal Years 1998 through 2001.




                         Table 2. Success in Meeting Project-Specific Budget Milestones

      Milestone Status                                                                   2000    2001     Total
      Total Number of Milestones                                                          303     421       724
       Milestones Not Met                                                                  80     110       190
       Milestones Met                                                                     223     311       534
       Percent of Milestones Met                                                         74%     74%       74%
      Source: OIG generated from Integrated Planning and Budget System data.




Page 9                                                        Environmental Management Performance Indicators
Appendix 3

                                          RELATED REPORTS


    OFFICE OF INSPECTOR GENERAL REPORTS

          •   Remediation and Closure of the Ashtabula Environmental Management Project (DOE/
              IG-0541, January 2002). As of October 2001, about 8 years after the remediation
              contract was awarded, only about 50 percent of the site's contaminated acreage and
              about 20 percent of the potentially contaminated soil had been remediated. Despite the
              planned 2003 completion date, the Ashtabula Environmental Management Project
              clean-up effort might not be completed until 2012, resulting in a likely increase in
              project costs of over $60 million.

          •   Remediation and Closure of the Miamisburg Environmental Management Project
              (DOE/IG-0501, May 2001). BWXTO will not meet the cost and schedule provisions of
              its contract with the Government to complete remediation and exit the site no later than
              September 30, 2005, at an estimated cost of $427 million. The estimated cost to
              complete the closure of the Miamisburg Environmental Management Project has grown
              to over $1 billion, including $148 million in infrastructure costs to keep the site open
              through 2009.

          •   The Decontamination and Decommissioning Contract at the East Tennessee Technology
              Park (DOE/IG-0481, September 2000). BNFL, Inc. is not on track to complete the
              decontamination and decommissioning of buildings K-29, K-31, and K-33 within the
              current contract price or on schedule. As of March 2000, 61 percent of the costs
              associated with the current value of the contract had been incurred, but only 14 percent
              of the project had been completed. It was estimated that the project will cost $94
              million more than the current contract amount of $250 million and that completion is at
              least two years behind schedule.

    GENERAL ACCOUNTING OFFICE REPORTS

          •   Nuclear Waste: Agreement Among Agencies Responsible for the West Valley Site Is
              Critically Needed (GAO-01-314, May 2001). While the Department has almost
              completed solidifying the high-level wastes at West Valley, major additional cleanup
              work remains that makes it unlikely to meet its estimated 2005 closing date. For
              example, additional cleanup steps that must be taken include decontamination and
              decommissioning structures, remediating soil and groundwater, and removing nuclear
              wastes stored and buried on site. These and other steps could take up to four decades
              with cleanup costs totaling about $4.5 billion.




Page 10                                                                                   Related Reports
Appendix 3 (continued)

          •   Nuclear Cleanup: Progress Made at Rocky Flats, but Closure by 2006 Is Unlikely, and
              Costs May Increase (GAO-01-284, February 2001). Kaiser-Hill and DOE are unlikely
              to meet the December 2006 target closure date. Kaiser-Hill has made significant
              progress toward cleaning up the site, but the majority of the work—and the most
              complicated—remains to be done. As of December 2000, Kaiser-Hill estimated that it
              had only about a 15-percent probability of completing the project by 2006.

          •   Nuclear Waste: Department of Energy's Hanford Tank Waste Project – Schedule, Cost,
              and Management Issues (GAO/RCED-99-13, October 1998). The project, as currently
              envisioned, is substantially different from DOE's 1996 initial privatization strategy.
              Although the project award was made on the basis of a fixed-priced contract, further
              competition between contractors and short-term demonstration facilities have been
              eliminated in favor of more permanent facilities that could operate for 30 years or more
              and, therefore, would be available to treat additional tank waste. The revised approach
              extends the completion date for processing the first portion of the waste from 2007 to
              2017, and total costs rise from $4.3 billion to $8.9 billion.




Page 11                                                                                   Related Reports
Appendix 4




Page 12      Management Response
Appendix 4 (continued)




Page 13                  Management Response
Appendix 5

SCOPE         The audit was performed between January and April 2002, at
              Department Headquarters in Washington, DC and Germantown, MD.
              We evaluated whether Environmental Management's performance
              measures reflected the actual progress made in achieving site cleanup.
              Our work did not include a determination of whether the established
              performance measures met all the requirements of the Results Act (i.e.,
              were objective, quantifiable, etc.) or whether the reported results were
              actually achieved.


METHODOLOGY   To accomplish our objective, we:

                   •   Reviewed the Results Act, OMB Circulars, and Departmental
                       guidance pertaining to performance measures.

                   •   Reviewed Environmental Management's budget requests, the
                       Department's Annual Performance Plans and Accountability
                       Reports for Fiscal Years 1998-2001.

                   •   Reviewed relevant reports issued by the Office of Inspector
                       General and the General Accounting Office.

                   •   Held discussions with officials and staff in the Office of
                       Environmental Management.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Because our review
              was limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. To
              accomplish the audit objective we performed a limited reliability
              assessment of computer-processed data. Our assessment revealed
              reliability problems with certain performance related data. Because of
              these issues, we performed alternative procedures to verify that the data
              was reliable, including a review of publicly reported corroborating
              information. When these data are viewed in context with other
              available evidence, we believe the opinions, conclusions, and
              recommendations in this report are valid.

              Management waived the exit conference.




Page 14                                                     Scope and Methodology
                                                                           IG Report No. DOE/IG-0561

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
    friendly and cost effective as possible. Therefore, this report will be available
       electronically through the Internet at the following alternative addresses:


             Department of Energy Office of Inspector General Home Page
                               http://www.ig.doe.gov


           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.
